May 13, 2011

LINDA J. WELCH
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

JORDAN M. SMALL
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT: Audit Report – Facility Optimization: Former Southeast Area Districts
        (Report Number DA-AR-11-007)

This report presents the results of our audit of facility optimization in the former
Southeast Area (Project Number 11YG007DA000). The U.S. Postal Service Office of
Inspector General (OIG) initiated this audit from a random sample of districts
nationwide. For the former Southeast Area, our objective was to identify opportunities to
optimize existing real estate in the North Florida, South Florida, and Tennessee
Districts. See Appendix A for additional information about this audit.

The three districts analyzed in the former Southeast Area use over 1,114 facilities
covering nearly 11 million square feet (SF) of interior space for its retail and delivery
operations. While the area employs these facilities, it has experienced a significant
reduction in workload in recent years. From fiscal years (FYs) 2005 to 2010, mail
volume in the former Southeast Area has dropped 8 percent annually on average.
Likewise, mail volume in the North Florida, South Florida, and Tennessee Districts has
decreased by about 10 percent annually on average. This reduction in workload
provides an opportunity to reevaluate space needs and identify potential excess space.

Conclusion

In the former Southeast Area, the North Florida, South Florida, and Tennessee Districts
have nearly 3 million more SF than their workload suggests they need. The U.S. Postal
Service has the option to optimize excess real property through:

   Disposal – selling property.
   Outleasing – leasing owned property.
   Subleasing/Reassignment – reassigning leased property.
   Development/Redevelopment – investing in real estate projects.

With two major efforts underway, the Postal Service has begun optimizing existing
space. Specifically, the former Southeast Area plans to dispose of 934,155 SF of this
excess space through approved optimization projects, with another 292,293 SF
Facility Optimization: Former Southeast Area Districts                                                  DA-AR-11-007



scheduled for evaluation in FY 2011 for the three districts selected for our review.
Although it has made progress, the Postal Service can do more to dispose of excess
interior space more quickly. The opportunity to optimize excess interior space in the
reviewed districts exists because:

    Postal Service policy requires installation heads to report excess space, but does
    not provide the necessary guidance to effectively accomplish this task.

    The excess space reporting system does not track metrics such as dates or space
    conditions to allow for prioritizing disposal actions.

We estimate that if the former Southeast Area initiates disposal1 action for the excess
space we identified in the North Florida, South Florida, and Tennessee Districts, there is
a potential opportunity to realize $151,624,1442 over typical and remaining lease terms.
We consider this amount to be funds put to better use3. See Appendix B for our detailed
analysis of this topic and Appendix C for our monetary impact calculation.

Our audit also noted that the Postal Service could more aggressively seek federal
entities needing space. In the districts reviewed, our analysis shows that excess space
identified at Postal Service facilities may be able to accommodate 72 percent of current
federal agencies’ space needs. This opportunity exists because the Postal Service has
not capitalized on the priority status it has for filling federal agencies’ space needs,
which would allow it to reduce its facility infrastructure size and generate additional
revenue. See Appendix D for more information.

We recommend the vice presidents, Operations, Southwest and Eastern areas; district
managers; area managers; and Southwest and Eastern Area Facility Service Office
managers work in coordination to:

1. Clarify procedures for reporting excess space.

2. Initiate disposal actions for excess space identified.

3. Pursue rental opportunities with federal agencies as an option to optimize excess
   property.




1
  Disposal actions available include sale, termination of lease, consolidation, and/or subleasing. At a minimum, the
Postal Service can out-lease or initiate a sublet action for owned or leased property, respectively.
2
  The annualized savings is $15,162,414.
3
  Funds that could be used more efficiently by implementing recommended actions. This amount does not include
excess square footage that is part of an approved node study.


                                                           2
Facility Optimization: Former Southeast Area Districts                            DA-AR-11-007




Management’s Comments

Management agreed with our recommendations. They stated they have put corrective
actions in place to address the first two recommendations and will complete corrective
action to address the third recommendation by the end of Quarter 3, FY 2011. While
management agreed with our recommendations, management did not agree with the
amount of excess space or the potential monetary impact reported. Specifically, they
disagreed with the method we used to calculate existing excess space, in addition to the
data and cost factors used to value the excess space and calculate the monetary
impact.

In reference to the level of excess space reported, management conveyed that our
methodology does not include allowances for:

1. Unusable space such as basements and corridors. The audit treats every square
   foot as usable and leasable.

2. Unique operational functions not included in standard designs, such as
   administrative, district office, training, and caller service.

3. Inefficiencies in current building layout due to multiple floors, stairs, elevators,
   columns, and redundant support space required on each floor due to code
   requirements.

4. Historic property.

5. Parking and dock space requirements.

6. Large inflexible retail lobbies.

In reference to the data and cost factors used in our calculations, management
disagreed with the findings in general as stated in responses to prior audits.
Management specifically disagreed with the average build-out cost used in our
calculations, citing a range of costs they deem reasonable based on actual project
costs.

As such, management believes the accurate way to calculate monetary impact is by
multiplying useable excess space by sublease value less conversion cost. This
calculated outcome should then be adjusted for maintenance and utility savings.

Finally, management expressed the challenges facing the Postal Service when
disposing property in poor market conditions and actions they have already taken to
reduce excess property. In particular, management has focused its attention on
properties that have more than 10,000 interior SF, which represents 16 percent of
buildings and 76 percent of interior square footage. This allows the Postal Service to



                                                     3
Facility Optimization: Former Southeast Area Districts                           DA-AR-11-007



capture the largest opportunities for usable excess space. See Appendix E for
management’s comments, in their entirety.
Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. With respect to the
methodology used to calculate excess space, we did not determine whether the excess
space identified was usable, in part because Postal Service systems do not identify
usable areas. We agree that the Postal Service needs to update its realty management
policies and systems to define usable areas. According to commercial realty standards,
4
  usable areas are generally measured from “paint to paint” inside the permanent walls
to the middle of partitions. No deductions are made for columns and projections
necessary to the building. Our calculations reflect these standards.

As it relates to the usability of basements, we note that Postal Service Headquarters
and many federal agency buildings use basement space. According to commercial
realty standards, basement space is counted as usable and leasable areas. Mechanical
rooms are considered common areas, a proportionate share of which is allocated to a
tenant’s area. We did not include allowances for existing functions, building layout
inefficiencies, and inflexible spaces because the Postal Service’s current space
standards did not specify these allowances. Our audit focused on interior excess space,
thus, enclosed parking and dock spaces were outside the scope of the audit.

Management also conveyed that we did not consider the historic nature of buildings and
the challenges or costs associated with making changes to these buildings. While we
agree that there are properties of the Postal Service that are historic in nature, we do
not feel this has a large impact on the presentation of our results. The number of eligible
historic buildings listed in the Postal Service’s systems account for less than 1 percent
of their properties. Also, while the Postal Service is required to consult with historical
organizations, they are not bound by these any decisions resulting from the
consultations.

The standard building design matrix served as the basis for determining earned space.
During the on-site visits, we inquired whether there were unique operations conducted
at the facility, such as bulk mail entry units or delivery bar code sorters, and allotted the
necessary space for those functions. Additionally, we applied the non-Flats Sequencing
System (FSS) rate of 123 SF per route to determine the earned delivery space, rather
than the post-FSS rate of 95 SF per route. Lastly, we did not consider performance
measures such as street efficiency indicators or alternate access sales in the earned
space calculation.

The Postal Service does not have a methodology for determining “build-out” costs at a
national, area, or district level. As such, to determine build-out cost we used the
average build-out costs for the area as presented in its node studies. We note that
build-out costs are negotiable and lessees, at times, absorb the cost of conversion. We
4
    www.boma.org


                                                     4
Facility Optimization: Former Southeast Area Districts                             DA-AR-11-007



built in several different tolerances relating to the size of excess space at sites reviewed
and considered the marketability of properties within the district. Further, the multiple
actions, such as lease terminations, disposals, and space/lease reductions, within the
approved node studies were acknowledged and reflected in our monetary impact
calculations. We recognized realty market conditions and discounted our excess space
calculations by the national commercial vacancy rate of 14 percent. Therefore, we
consider our presentation of monetary impact as fair and conservative.

Finally, we recognize the efforts made to optimize Postal Service real estate and
management’s attention to properties of more than 10,000 SF. We believe that once
management modernizes its realty management systems to have greater visibility of
excess space, it will be able to better prioritize disposal actions associated with its full
building inventory.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel A. Castillo, director,
Engineering and Facilities, or me at 703-248-2100.




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Megan J. Brennan
    Tom A. Samra
    Jim D. Barnett
    Jerry Goddard
    William C. Rucker
    Tom Russell
    Corporate Audit and Response Management




                                                     5
Facility Optimization: Former Southeast Area Districts                            DA-AR-11-007



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The former Southeast Area leases or owns over 1,114 facilities with nearly 11 million
SF to move mail in the North Florida, South Florida, and Tennessee Districts. The
consolidation or closure of facilities is a widely discussed topic due to declining mail
volume and the resulting financial condition of the Postal Service. In response, the
Postal Service’s Facilities and Retail Management organizations have implemented
initiatives to optimize space — namely, initiation of the Facility Optimization Program
and the Station and Branch Optimization Consolidation (SBOC) program.

In April 2008, the vice president of Facilities initiated the Facility Optimization Program
to balance the portfolio of existing delivery facilities with the Postal Service’s current and
projected space needs. The program’s objectives are to generate revenue and reduce
rent obligations and operational costs. The process entails identifying, investigating,
analyzing, and approving space before executing the approved optimization action. The
former Southeast Area has four approved optimization studies in the North Florida
District, 11 in the South Florida District, and seven in the Tennessee District.

Established in May 2009, the SBOC program provides tools and strategies to evaluate
the effectiveness of Postal Service retail placement in support of the Transformation
Plan’s goals of improved service and increased revenue.

As of the February 26, 2010, filing, management was considering the following facilities
for closure:

        JAX-Airport Station.
        JAX-Cecil Field FSTA.
        PFN-Eastside STA.
        MIA-International Airport Finance.
        MIA-Edison Center FSTA.
        FMY-Miracle Mile STA.
        KIS-Good Samaritan BR.
        NPS-Golden Gate Finance.
        NPS-Vanderbilt Beach.
        ORL-Lee Vista Station.
        SPT-Central STA.
        SPT-Pass A Grille.
        TPA-Port Tampa.
        TPA-Seminole Heights.
        MEM-Lee Finance Unit.




                                                     6
Facility Optimization: Former Southeast Area Districts                           DA-AR-11-007



In addition to the ongoing node studies5 and SBOC program, the three districts have
taken action to utilize space and provide alternative services by selling Hallmark cards
in existing lobby space at several facilities.

In October 2010, the Postal Service consolidated optimization efforts to manage
excess space. Currently, the Postal Service has a program in place to optimize carrier
delivery facilities through the use of node studies. The goal is to manage the excess
space portfolio for all space types in one overall optimization initiative. This integrated
effort between Facilities Headquarters and the field offices will use computer modeling
and equipment analysis along with local analysis and metro planning to form
headquarters and district/area partnerships.

To supplement and expand on existing Postal Service initiatives, the OIG developed a
Real Estate Risk Model (RERM) to identify and prioritize emerging facility risk. The risk
model measures facility performance results by district for the following nine metrics:




5
    Studies of consolidation for sites in a geographic radius.


                                                                 7
Facility Optimization: Former Southeast Area Districts                                                  DA-AR-11-007




                                  Table 1 – Risk Metrics
                                      RERM Metrics
Ratio of Mail Volume to Interior SF            Excess Postal Service Identified Interior
                                               Space
Ratio Revenue to Interior SF                   Excess Land
Ratio of Total Expense to Interior SF          Facility Condition
Ratio of Employees to Interior SF              Density, Geographic Location
Ratio of Retail Revenue to Total Expense

We randomly selected 17 districts to study excess interior space on a national basis.
The three districts we selected were in the former Southeast Area.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to identify opportunities for the Postal Service’s former Southeast Area
to optimize existing real estate. We visited 118 of 1,114 facilities in the North Florida,
South Florida, and Tennessee Districts, representing 43 percent of OIG-calculated
excess space when actual interior space is compared to space standards. The scope of
the audit included main post offices, carrier annexes, stations, branches, and mail
processing facilities. To accomplish our objective we visited selected facilities, conducted
interviews, and examined other relevant materials.

To calculate the earned6 facility size, we compared the workload data from Postal Service
databases7 to the number of carrier routes, the number of rented post office box sections,
and peak window use. We based the earned facility size on Postal Service criteria8 for
planning new space projects, which differs from existing Postal Service initiatives9
because it focuses on the total facility size, not specific retail or delivery operations. We
calculated excess space by taking the difference between earned facility size and actual
interior square footage reported in the electronic Facilities Management System (eFMS).
For the plants, the local in-plant support provided us the excess space data which we
assessed for reasonableness.

We conducted this performance audit from December 2010 to May 2011 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
6
  We used Postal Service criteria established in March 2007 outlined in a letter issued by the senior vice president of
Operations. In support of this new criteria, the Headquarters Facility Group, Planning and Approval, designed
matrices to assist with the space requirements of planned facilities.
7
  WebBATS Monthly Summary Data for issued post office box information, Intelligent Mail and Address Quality
Delivery Statistics Summary for route information, and Retail Data Mart for earned peak modeled window staffing.
8
  Space Requirements Matrix for Non-Flat Sequencing System offices.
9
  SBOC and Facilities Optimization programs.


                                                           8
    Facility Optimization: Former Southeast Area Districts                                       DA-AR-11-007



    observations and conclusions with management officials on April 13, 2011, and included
    their comments where appropriate.

    We assessed the reliability of facility-related data by verifying the accuracy of
    computer-generated information through observations during facility tours and
    interviewing agency officials knowledgeable about the data. We determined that the
    data was sufficiently reliable for the purposes of this report.

    PRIOR AUDIT COVERAGE

    The following audit reports are relevant to the Postal Service’s facility infrastructure:

                      Report            Final Report          Monetary
 Report Title                                                                          Report Results
                      Number                Date               Impact
Facility                                                                    The OIG identified 2.3 million SF of
Optimization:                                                               excess space. Management agreed
                   DA-AR-11-003          03/01/2011           $99,618,007
Southwest                                                                   with the recommendations but
Area Districts                                                              disagreed with the monetary impact.
Facility                                                                    The OIG identified 2.8 million SF of
Optimization:                                                               excess space. Management agreed
                   DA-AR-11-002           2/11/2011          $190,656,882
Eastern Area                                                                with the recommendations but
Districts                                                                   disagreed with the monetary impact.
Facility                                                                    The OIG identified 1.7 million SF of
Optimization:                                                               excess space. Management agreed
                   DA-AR-11-004           2/25/2011           $36,312,795
Capital Metro                                                               with the recommendations but
Area Districts                                                              disagreed with the monetary impact.
Facility                                                                    The OIG identified 4.5 million SF of
Optimization:                                                               excess space. Management agreed
                   DA-AR-11-001            2/7/2011          $173,835,881
Western Area                                                                with the recommendations but
Districts                                                                   disagreed with the monetary impact.
Facility                                                                    The OIG identified 1.98 million SF of
Optimization:                                                               excess space. Management agreed
                   DA-AR-10-008           8/25/2010          $157,963,990
Northern New                                                                with recommendations but disagreed
Jersey District                                                             with the monetary impact.
Facility                                                                    The OIG identified 740,529 SF of
Optimization:                                                               excess space. Management agreed
                   DA-AR-10-009           8/25/2010           $23,517,019
Chicago                                                                     with recommendations but disagreed
District                                                                    with the monetary impact.
Facility                                                                    The OIG identified 2.4 million SF of
Optimization :                                                              excess space. Management agreed
                   DA-AR-10-010           8/25/2010          $446,258,222
New York                                                                    with the recommendations but
District                                                                    disagreed with the monetary impact.




                                                         9
    Facility Optimization: Former Southeast Area Districts                                     DA-AR-11-007



                      Report            Final Report          Monetary
 Report Title                                                                       Report Results
                      Number                Date               Impact
                                                                         The Government Accountability Office
Restructuring                                                            (GAO) added the U.S. Postal
the U.S. Postal                                                          Service’s financial condition to the list
Service to                                                               of high-risk areas needing Congress’
Achieve            GAO-09-937SP           7/28/2009            None      attention and the executive branch to
Sustainable                                                              achieve broad-based transformation.
Financial                                                                It recognized the need to reduce the
Viability                                                                facility infrastructure. There was no
                                                                         Postal Service response in the report.
                                                                         Federal agencies have taken some
Federal Real                                                             positive steps to address real property
Property: An                                                             issues but some of the core problems
Update on          GAO-09-801T            7/15/2009            None      that led to designation of this area as
High-Risk                                                                high-risk continue to persist. There
Issues                                                                   was no Postal Service response in the
                                                                         report.
                                                                         The Postal Service will require action
Network                                                                  in a number of areas, such as
Rightsizing                                                              rightsizing its retail and mail
Needed to                                                                processing networks by consolidating
Help Keep          GAO-09-674T            5/20/2009            None      operations and closing unnecessary
USPS                                                                     facilities. The Postal Service generally
Financially                                                              agreed with the accuracy of the
Viable                                                                   statements and provided technical
                                                                         comments, which were incorporated.




                                                         10
Facility Optimization: Former Southeast Area Districts                                                   DA-AR-11-007



                                 APPENDIX B: DETAILED ANALYSIS

Excess Space is Significant in the former Southeast Area

Based on facility space requirements10, we calculated that the districts reviewed in the
former Southeast Area maintain nearly 3 million SF more than they need for current
operational workload. As depicted in Chart 1, excess space was 27 percent of the total
interior square footage.

                    Chart 1 – Area Interior and Excess Space Comparison




The breakdown of interior square footage and OIG-calculated excess for the 118 visited
facilities in the former Southeast Area is represented in Table 2. Stations contributed
38 percent of the excess space, while branches (17 percent), main post offices
(16 percent), and plants (12 percent) followed to a lesser degree.

                         Table 2 – Excess Space by Facility Type Visited

                                Facility                                                OIG             Interior
                                 Type        Percentage          Percentage          calculated         Square
        Facility Type
                                Count         of Count            of Excess           Excess           Footage
     Stations                         45            38%                  38%            355,609          896,386
     Branches                         19            16%                  17%            162,168          405,695
     Main Post Offices                24            20%                  16%            151,910          855,058
     Plants                           13            11%                  12%            116,326        2,347,225
     Carrier Annexes                  10             8%                  10%             98,106          212,374
     Finance Centers                   7             6%                   6%             52,438          108,494




10
   We used Postal Service criteria established in March of 2007 outlined in a letter issued by the senior vice president
of Operations. In support of this new criteria, the Headquarters Facility Group, Planning and Approval, designed
matrices to assist with the space requirements of planned facilities.


                                                          11
      Facility Optimization: Former Southeast Area Districts                          DA-AR-11-007



      To highlight excess space in the former Southeast Area, Illustration 1 depicts two
      facilities with excess interior space. The Monument Station Post Office is a Postal
      Service-owned facility with delivery and retail operations. It maintains significant vacant
      space on the workroom floor. Likewise, the Father Felix Varela Branch is a Postal
      Service-owned facility with delivery and retail operations. It also maintains significant
      vacant space on the workroom floor. According to our calculations, 92 percent of the
      sites visited contained excess space, ranging from 1,865 to 84,056 SF.

                            Illustration 1 – Examples of Excess Space
Monument Station                                 Father Felix Varela Branch
10990 Fort Caroline Road                         14310 SW 8th Street
Jacksonville, FL 32225                           Miami, FL 33184
Interior Square Footage: 25,100                  Interior Square Footage: 26,888
OIG-calculated excess: 15,600                    OIG-Calculated Excess SF: 15,888




      Causes for Excess Interior Space

      The opportunity to optimize excess interior space in the former Southeast Area exists
      because:

          Postal Service policy requires installation heads to report excess space, but does
          not provide the necessary guidance to accomplish this task effectively.

          Facility systems do not track metrics such as dates or space conditions to allow
          effective management of excess space.




                                                           12
Facility Optimization: Former Southeast Area Districts                        DA-AR-11-007



Guidance Can Be Improved

A review of the facility database user guide shows it does not provide sufficient
guidance for identifying excess space using the workload-driven space requirements.
For example, the facility database space survey asks installation heads to objectively
answer “Do you have any vacant space in your facility that is in leasable condition and
has access that does not compromise the security of the operation?” without providing
further guidance or referencing space standards. While we identified excess space at
109 of the 118 Postal Service facilities we visited, only four locations answered “yes” to
the vacant leasable space survey question. As a result, we identified nearly 3 million SF
of excess interior space in the North Florida, South Florida, and Tennessee Districts.

Facility Systems Do Not Allow for Effective Management of Excess Space

The Postal Service’s workload has declined, resulting in significant excess space.
However, the electronic systems that manage facility space do not collect or monitor
metrics such as length of time that space is underused or vacant and the condition of
excess space to prioritize disposal actions efficiently.

For comparison purposes, we benchmarked Postal Service facility practices against the
General Services Administration’s (GSA) realty management practices and found the
GSA “ages” its available space for tracking, monitoring, and decision-making. The
Postal Service does not have the ability to age excess space as it does not collect dates
on entry.

The GSA’s Public Buildings Service also manages its leased portfolio by focusing on
four primary areas: reducing vacancy, managing lease administration expenses,
managing customer requirements, and analyzing market trends. Similarly, GSA-owned
facilities are monitored and analyzed using performance metrics such as revenue, funds
from operations, operating costs, vacancy, net operating income, and return on equity.
The Postal Service’s facility management systems are not able to manage property in
this way. For example, rents from leases or subleases are tracked manually using
electronic spreadsheets.

Additionally, because the Postal Service’s eFMS calculates space based on delivery
and retail metrics, the excess space reported for processing and distribution plants is
inaccurate. Therefore, eFMS is not a reliable source for identifying how much excess
space is available in postal plants. The Postal Service plans to measure plants and
update its facility database. To complete this task, industrial engineers, working with
local in-plant support, use blueprints to identify processing equipment, staging areas,
and manual work areas as well as to identify excess space.

We estimate that if the former Southeast Area initiated disposal actions, there is a
potential opportunity to realize $151,624,14411 over typical and remaining lease terms.
We consider this amount funds that could be used more efficiently by implementing
11
     The annualized savings would be $15,162,414.


                                                     13
          Facility Optimization: Former Southeast Area Districts                                               DA-AR-11-007



          recommended actions. See Appendix C for the monetary impact calculation and
          assumptions.

          Opportunity to Fulfill Federal Space Needs

          The GSA is the nation's largest public real estate organization. It provides workspace for
          more than 1 million federal workers through its Public Buildings Service. According to
          the Code of Federal Regulations (CFR), when GSA-controlled space is not available,
          federal agencies must extend priority consideration to available space in Postal Service
          buildings.12

          Our audit noted that the Postal Service could more aggressively seek federal entities to
          excess space. Table 3 illustrates the potential fulfillment opportunities in both districts
          reviewed in the former Southeast Area. Specifically, it shows that GSA leases on behalf
          of federal entities primarily from the commercial sector rather than the Postal Service.
          Space requirements were greater than the excess space identified in Postal Service
          facilities. The GSA paid considerably more per square foot than the value assigned to
          Postal Service space.13

                             Table 3 – Postal Service Excess Space Lease Opportunity
                                 Postal                                   Existing                  Postal
                   GSA           Service                    Postal        GSA/        GSA           Service          GSA Annual
                                                GSA
Districts          Leased        OIG                        Service       Postal      Average       OIG              Opportunity
                                                Count
                   SF            Excess                     Count         Service     SF Cost       Average             Rent
                                 SF                                       Leases                    SF Value
South                                                                                                              116 of
Florida             3,377,964       879,421          181          141             0       $32.15        $26.64      181        64%
North                                                                                                              110 of
Florida             1,533,720       861,934          135          192             1        22.93          16.67     135         81
                                                                                                                   132 of
Tennessee           1,894,567     1,153,547          183          371             1        20.27           9.16     183         72
                                                                                                                   358 of
Totals             6,806,251     2,894,902        499          704                2       $26.81        $16.71      499        72%

          Table 3 and Appendix D also illustrate the strong correlation between space
          leased by the GSA and the ability of the Postal Service to significantly
          accommodate federal space needs. For the districts reviewed, we estimate that
          Postal Service excess space may accommodate 358 of 499 (or 72 percent) of
          current federal leases. However, we understand that more information is
          necessary to determine whether the Postal Service’s excess space would be
          suitable.




          12
               Title 41 CFR 102-73.20.
          13
               We assigned Postal Service excess space a value based on historical lease rates in the same geographic areas.


                                                                     14
    Facility Optimization: Former Southeast Area Districts                                                                                   DA-AR-11-007



                                                                  APPENDIX C: MONETARY IMPACT
                                                                   FUNDS PUT TO BETTER USE14
    North Florida District Monetary Impact

Project Year                                                             1             2               3             4             5             6             7            8          9
Fiscal Year                                            2012           2013          2014            2015          2016          2017          2018          2019         2020       2021
Owned**
Sublease Value                                  ($17,208,040)
                                                                 $7,161,220    $7,161,220    $7,161,220      $7,161,220    $7,161,220    $7,161,220    $7,161,220   $1,790,305
Custodial savings                                                $1,322,865    $1,322,865    $1,322,865      $1,322,865    $1,322,865    $1,322,865    $1,322,865    $330,716
Utility Savings                                                  $1,281,347    $1,310,818    $1,340,967      $1,371,809    $1,403,360    $1,435,638    $1,468,657    $375,609
Leases Expiring After FY 2011
Sublease Value                                   ($5,599,282)    $2,330,172    $2,271,193    $2,113,186      $1,899,316    $1,883,789     $882,062      $839,194     $614,719    $415,275
Custodial savings                                                 $430,444      $419,549         $390,361     $350,853      $347,985      $162,940      $155,021     $113,555     $76,712
Utility Savings                                                   $416,934      $415,728         $395,702     $363,834      $369,160      $176,830      $172,106     $128,969     $89,129


Subtotals                         $66,915,219    -22,807,322    $12,942,982   $12,901,373   $12,724,301     $12,469,897   $12,488,380   $11,141,556   $11,119,063   $3,353,874   $581,116


Discounted at Postal Service
Cost of Borrowing               $54,276,681     -$22,807,322    $12,460,151   $11,956,770   $11,352,743     $10,710,722   $10,326,447    $8,869,101    $8,521,007   $2,474,334   $412,728
Cash Flows @ Sub Lease Efficiency Rate

                                  $47,057,883   -$19,773,948    $10,802,951   $10,366,519    $9,842,828      $9,286,196    $8,953,029    $7,689,511    $7,387,713   $2,145,248   $357,835


                                                                       Net Present Value: $47,057,883
              Build-out cost SF                                 $26.46                 Custodial rate SF                      $2.03
                                                                                       Postal Service cost of
              Lease savings SF per Year                         $11.01                 borrowing                              3.875%
              Utilities savings SF per Year, FY 2010            $1.97                  Sub-lease efficiency rate              86.7%
              Utility cost escalation rate                      2.30%
                                                                Assumptions            **Weighted Average Lease years = 7.3


    14
         Funds the Postal Service could use more efficiently by implementing recommended actions.

                                                                                            15
    Facility Optimization: Former Southeast Area                                                                                           DA-AR-11-007




    South Florida District Monetary Impact

Project Year                                                           1             2               3             4             5             6             7            8          9
Fiscal Year                                          2012           2013          2014            2015          2016          2017          2018          2019         2020       2021
Owned**
Sublease Value                                ($14,858,970)
                                                               $9,312,856    $9,312,856    $9,312,856      $9,312,856    $9,312,856    $9,312,856    $9,312,856   $1,790,305
Custodial Savings                                              $1,119,953    $1,119,953    $1,119,953      $1,119,953    $1,119,953    $1,119,953    $1,119,953    $330,716
Utility Savings                                                $1,276,015    $1,305,363    $1,335,386      $1,366,100    $1,397,521    $1,429,664    $1,462,546    $375,609
Leases Expiring After FY 2011
Sublease Value                                 ($8,411,069)    $5,271,635    $4,762,583    $3,765,044      $2,470,863    $2,205,947     $524,608      $319,876     $259,261    $259,261
Custodial Savings                                               $633,960      $572,742         $452,780     $297,143      $265,284       $63,089       $38,468      $31,178     $31,178
Utility Savings                                                 $722,301      $667,561         $539,876     $362,450      $331,032       $80,535       $50,235      $41,652     $42,610


Subtotals                       $87,377,615    -23,270,039    $18,336,719   $17,741,058   $16,525,894     $14,929,364   $14,632,592   $12,530,704   $12,303,933   $3,314,340   $333,049


Discounted at Postal Service
Cost of Borrowing               $72,577,641   -$23,270,039    $17,652,678   $16,442,106   $14,744,561     $12,823,222   $12,099,463    $9,974,916    $9,429,023   $2,445,168   $236,543
Cash Flows @ Sub Lease Efficiency Rate

                                $62,924,815   -$20,175,124    $15,304,872   $14,255,306   $12,783,535     $11,117,734   $10,490,234    $8,648,252    $8,174,963   $2,119,961   $205,082



                                                                     Net Present Value: $62,924,815

        Build-out cost SF                                     $26.46                 Custodial rate SF                       $1.99
                                                                                     Postal Service cost of
        Lease savings SF per Year                             $16.58                 borrowing                               3.875%
        Utilities savings SF per Year, FY 2010                $2.27                  Sub-lease efficiency rate               86.7%
        Utility cost escalation rate                          2.30%
                                                              Assumptions            **Weighted Average Lease years = 7.3




                                                                                          16
    Facility Optimization: Former Southeast Area                                                                                              DA-AR-11-007




    Tennessee District Monetary Impact

Project Year                                                              1             2               3             4             5             6             7            8          9
Fiscal Year                                             2012           2013          2014            2015          2016          2017          2018          2019         2020       2021
Owned**
Sublease Value                                   ($19,416,153)
                                                                  $6,475,038    $6,475,038     $6,475,038     $6,475,038    $6,475,038    $6,475,038    $6,475,038   $1,618,760
Custodial Savings                                                 $1,205,707    $1,205,707     $1,205,707     $1,205,707    $1,205,707    $1,205,707    $1,205,707    $301,427
Utility Savings                                                   $1,309,545    $1,339,665     $1,370,477     $1,401,998    $1,434,244    $1,467,232    $1,500,978    $383,875
Leases Expiring After FY 2011
Sublease Value                                   ($11,107,434)    $3,704,187    $3,284,875     $3,051,746     $2,500,625    $2,469,131    $1,010,151     $924,097     $641,543    $400,437
Custodial Savings                                                  $689,751      $611,672         $568,261     $465,638      $459,773      $188,099      $172,075     $119,461     $74,565
Utility Savings                                                    $749,154      $679,630         $645,919     $541,444      $546,921      $228,898      $214,215     $152,136     $97,144


Subtotals                          $60,561,376    -30,523,587    $14,133,382   $13,596,586    $13,317,148    $12,590,450   $12,590,815   $10,575,125   $10,492,109   $3,217,202   $572,146


Discounted at Postal Service
Cost of Borrowing               $48,029,349      -$30,523,587    $13,606,144   $12,601,081    $11,881,687    $10,814,268   $10,411,149    $8,418,201    $8,040,546   $2,373,504   $406,357
Cash Flows @ Sub Lease Efficiency Rate

                                   $41,641,446   -$26,463,950    $11,796,527   $10,925,137    $10,301,423     $9,375,970    $9,026,466    $7,298,580    $6,971,153   $2,057,828   $352,312



                                                                        Net Present Value: $41,641,446

               Build-out cost SF                                   $26.46                    Custodial rate SF                    $1.64
                                                                                             Postal Service cost of
               Lease savings SF per Year                           $8.82                     borrowing                            3.875%
               Utilities savings SF per Year, FY 2010              $1.78                     Sub-lease efficiency rate            86.7%
               Utility cost escalation rate                        2.30%
                                                                   Assumptions:              **Weighted Average Lease years = 7.3




                                                                                             17
Facility Optimization: Former Southeast Area Districts                                                  DA-AR-11-007



Value Assigned to the Excess Space

Table 4 shows the value per square foot for each district. Using the Facility Inventory
Reports from the eFMS, we calculated this figure by dividing total interior square
footage by total lease costs.

Utility Costs Associated with the Excess Space

Table 4 shows the utility cost per square foot for each district. Using the information
from line 42 of the Financial Performance Report (FPR), we calculated this figure by
dividing the total annual utility expenses by the district’s total interior square footage,
with a cost escalation rate of 2.3 percent.

Maintenance Costs Associated with the Excess Space

Table 4 shows the maintenance cost per square foot for each district. We calculated this
cost by dividing the total annual maintenance expenses15 by the district’s total interior
square footage. However, we reduced the cost by 50 percent, based on previously
identified savings in a custodial maintenance audit.16

Build-Out Costs Associated with Implementing Optimization Actions

Table 4 shows the build-out cost per square foot for the former Southeast Area. We
calculated this figure by dividing the “build-out/Line 63 capital” costs for all approved
optimization node studies in the former Southeast Area by the total reduction in square
footage identified in the approved node studies. We calculated the average build-out
cost and then removed any “outliers,” such as items with no build-out cost or items
whose build-out cost per square foot was not in keeping with the emerging range of
costs to generate a new build-out cost.


                        Table 4 – Square Footage Cost by District
                               Lease       Utility   Maintenance                             Build out
               District
                              Cost/SF     Cost/SF      Cost/SF                               Cost/SF17
            South Florida         $16.58      $2.27         $3.99                               $33.60
            North Florida          11.01        1.97          4.07                               14.25
            Tennessee               8.82        1.78          3.29                               14.63




15
   eFlash (Labor Distribution Code 38, salary and benefits) + FPR Line 3F Contract Cleaners Costs.
16
   Custodial Maintenance (Report Number DA-AR-09-011, dated August 13, 2009).
17
   While build-out costs are negotiable and, at times, paid for by the lessor, these costs ranged from $0 per square
footage to $121.95 per square foot in the node studies analyzed.

                                                          18
Facility Optimization: Former Southeast Area                                DA-AR-11-007




Ownership of Facility and Term Years

We categorized all facilities in the district by ownership – leased versus
Postal Service-owned and further grouped the leased properties by the number of term
years remaining on the lease.

We calculated leases expiring before the end of FY 2011 based on the assumption that
these leases would be renewed for the standard 5-year period. We calculated leases
expiring after October 1, 2011, for the remaining lease term. We calculated
Postal Service-owned facilities over a period of 7.3 years, which was the historical
national average lease term.

Sublease Efficiency Rate

We identified the national commercial property vacancy rate from the National Realty
Association for industrial and retail space as 13.3 percent, so we reduced the net
present value savings realization to an 86.7 percent “success rate.”




                                               19
Facility Optimization: Former Southeast Area                                              DA-AR-11-007




            APPENDIX D: GSA-LEASED PROPERTIES COMPARED TO
                       POSTAL SERVICE EXCESS SPACE
South Florida District




                                               The pie chart illustrates the ratio of Postal Service
                                               excess space to GSA-leased commercial space.
               GSA           OIG               The table at left provides additional analysis by
Building       Leased        Identified        placing the real estate into size categories to
Size           Facilities    Excess            further assess supply versus demand.
   1,000           8            19
   5,000          48            52
   10,000         35            45
   20,000         39            22
   30,000         17             2
   40,000         14             1
   50,000          9             0
    More          11             0
                  181           141


                                                      20
Facility Optimization: Former Southeast Area                                DA-AR-11-007



North Florida District




The pie chart illustrates the ratio of Postal Service excess space to GSA-leased
commercial space. The table below provides additional analysis by placing the real
estate into size categories to further assess supply versus demand.


                                             OIG
      Building        GSA Leased          Identified
       Size            Facilities          Excess
            1,000                 12               68
            5,000                 50               76
           10,000                 38               22
           20,000                 21               20
           30,000                  8                5
           40,000                  1                0
           50,000                  0                0
    More                           5                1
    Total Count                  135              192




                                                  21
Facility Optimization: Former Southeast Area                                DA-AR-11-007



Tennessee District




The pie chart illustrates the ratio of Postal Service excess space to GSA-leased
commercial space. The table below provides additional analysis by placing the real
estate into size categories to further assess supply versus demand.



                    GSA           OIG
  Building         Leased      Identified
   Size           Facilities    Excess
         1,000             9           160
         5,000            59           147
        10,000            62            39
        20,000            25            18
        30,000            18             3
        40,000             4             2
        50,000             2             1
More                       4             1
Total Count              183           371




                                               22
Facility Optimization: Former Southeast Area                DA-AR-11-007



                        APPENDIX E: MANAGEMENT’S COMMENTS




                                               23
Facility Optimization: Former Southeast Area        DA-AR-11-007




                                               24
Facility Optimization: Former Southeast Area        DA-AR-11-007




                                               25
Facility Optimization: Former Southeast Area        DA-AR-11-007




                                               26
Facility Optimization: Former Southeast Area        DA-AR-11-007




                                               27
